                            Office of Inspector Gene ral
                           Corporation for National a nd
                                    Community Serv~ce




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE'S
FISCAL YEAR 2004 FINANCIAL STATEMENTS
         MANAGEMENT LETTER

          Audit Report Number 05-02
               October 29,2004




                                            Corporation for             n




                        Prepared by:

               COTTON & COMPANY LLP
            333 North Fairfax Street, Suite 401
                Alexandria, Virginia 22314




 This report was issued to Corporation management on December 23, 200
 Under the laws and regulations governing audit follow up, the Corporation is ,
 make final management decisions on the report's findings ar
 recommendations no later than June 23, 2005, and complete its correcth
 actions by December 23, 2005. Consequently, the reported findings do nl
 necessarily represent the final resolution of the issues presented.
                               Office of Inspector General
                     Corporation for National and Community Service

                                 Independent Audit of the
                    Corporation for National and Community Service's
                Fiscal Year 2004 Financial Statements - Management Letter
                                    Audit Report 05-02



Introduction

In accordance with the Government Corporation Control Act (3 1 U.S.C. $9 9101-lo), the Office
of Inspector General (OIG) engaged Cotton and Company LLP to audit the Corporation for
National and Community Service's Fiscal Year 2004 financial statements. Their audit, conducted
in accordance with government auditing standards, resulted in an unqualified opinion on the
Corporation's financial statements. Audit Report 05-01, Audit of the Corporation for National
and Community Service's Fiscal Year 2004 Financial Statements, describes the basis for the
opinion as well as a reportable condition: the Corporation's monitoring of grantee activities.
This reportable condition was not considered to be a material weakness.

During the engagement, the auditors also noted certain matters involving the control over
financial reporting and other operational matters that were not considered material weaknesses or
reportable conditions.     This Management Letter discusses these matters and includes
recommendations for corrective action.

The contract required that the audit be done in accordance with generally accepted government
auditing standards. In compliance with our statutory responsibilities, we reviewed Cotton &
Company's reports and related audit documentation, interviewed their representatives, and
performed other procedures to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review of cotton &
Company's work was not intended to enable us to express, and we do not express, opinions on
the Corporation's financial statements or on conclusions on compliance with laws and
regulations. Cotton & Company is responsible for the enclosed reports and the conclusions
expressed therein. However, our review disclosed no instances where Cotton & Company did not
comply, in all material respects, with generally accepted government auditing standards.

We provided a draft of this report to the Corporation for review and comment. The Corporation's
response is included as Appendix A. In its response, the Corporation agreed with the
recommendations and stated that corrective action has been completed on many of the matters.
                                           auditors advisors




Inspector General
Board of Directors
Corporation for National and Community Service


                 INDEPENDENT
                          AUDITOF THE CORPORATIONFOR NATIONAL
                                                            AND
                COMMUNITY       FISCALYEAR2004 FINANCIAL
                        SERVICE'S                      STATEMENTS




In planning and performing our audit of the financial statements of the Corporation for National and
Community Service as of and for the year ended September 30,2004, we considered the Corporation's
internal control to determine auditing procedures for the purpose of expressing an opinion on the financia
statements and not to provide assurance on internal control.

During the audit, however, we became aware of several matters that present opportunities for
strengthening internal control and operating efficiency. We previously reported on the Corporation's
internal control in our report dated October 29,2004. This letter does not affect our report on the
financial statements of the Corporation dated October 29,2004.

We will review the status of these comments during our next audit of the Corporation's financial
statements. We have already discussed many of these comments and suggestions with the Office of the
Inspector General and Corporation staff, and we will be pleased to discuss these comments in further
detail at your convenience. Our comments and recommendations are attached.

We would like to express our appreciation to Corporation representatives who assisted us in completing
our audit. They were always courteous, helpful, and professional.

Very truly yours,

COTTON & COMPANY LLP


Alan Rosenthal, CPA
Partner

October 29,2004
Alexandria, Virginia
           INDEPENDENT AUDIT OF THE CORPORATION FOR NATIONAL AND
          COMMUNITY SERVICE'S FISCAL YEAR 2004 FINANCIAL STATEMENTS

                                      MANAGEMENT LETTER


Cotton & Company LLP conducted the Fiscal Year (FY) 2004 financial statements audit of the
Corporation for National and Community Service. During the audit, we became aware of several matters
that present opportunities for strengthening internal control and operating efficiency. These matters are
discussed in this management letter in the following categories:

                Grants Management
                National Service Trust
                Accounts Receivable and Debt Collection
                Human Resources and Payroll
                Vendor Payments
                General Electronic Data Processing Controls
                Property

A. GRANTS MANAGEMENT

A.1.    Office of Management and Budget (OMB) Circular A-133 audit findings and their
resolution are not adequately documented in the A-133 tracking database.

The Corporation reviews the Federal Audit Clearinghouse (FAC) database during the award approval
process to determine if grantees submitted audit reports to FAC in accordance with OMB Circular A-133
and to determine if any findings noted relate to the Corporation.

Our review of the A-133 tracking database maintained by the Corporation indicated that the follow-up
and resolution of audit findings is not consistently documented in the database. Further, existing data
entries lack adequate supporting documentation. Without this information, we are unable to verify the
timeliness of audit resolution.

To ensure that grantee internal control weaknesses and noncompliance issues are identified and properly
resolved in a timely manner, we recommend that the Corporation ensure that FAC reviews occur on a
timely basis to identify whether weaknesses and compliance problems are noted for grantees prior to the
award of grant funding. We recommend that personnel responsible for resolution and closure follow up
with grantees to ensure that exceptions are corrected promptly. This information should be accurately
transcribed into the FAC database, and documentation to support this information must be maintained.

A.2.    Grant closeout procedures do not ensure that projects are closed in a timely manner.

The Corporation has several policies regarding grant closeout. We noted, however, that effective
communication among grant managers, grant specialists, and grantees does not always occur.
Corporation personnel attempt to accommodate grantees, which sometimes results in grant closeouts not
being performed in accordance with the Corporation's policies for timeliness. A principal cause is the
failure by grantees to submit final Financial Status Reports (FSRs) within the allotted 90-day period
following the end of the grant period.

We reviewed a sample of 45 closed grant files and noted that 10 files were not closed within 180 days
following the end of the grant period. Of these 10 files, 5 were attributed to grantees failing to submit
their closeout documents within the allotted 90-day period.
                                                      1
Inconsistent closeout procedures place the Corporation at risk of not identifying amounts advanced to
grantees that should be returned to the Corporation. Furthermore, inconsistent closeout procedures
prevent the Corporation from making timely adjustments to financial statements, if necessary.

We recommend that the Corporation develop a consistent method of identifying expired grants and
enforce timely administrative closeout of these grants. Further, we recommend that the Corporation
develop timelines for Service Center staff to request required documentation before the expiration date to
ensure that grants are closed out in a timely manner. Also, we recommend that the Corporation
communicate the importance of semiannual FSRs to applicable grantees and perform follow-up
procedures when grantees are late.

A.3.    Member files did not always contain required documents.

During our review of member files, we requested 45 samples. Our sample encompassed all AmeriCorps
programs, consisting of AmeriCorps State, AmeriCorps National, National Civilian Community Corps
(NCCC), and VISTA. Of the 43 provided, seven samples did not have proper enrollment forms, and eigl-
did not have proper exit forms. Additionally, four of the 3 1 AmeriCorps State and National samples did
not have time sheets. During member file testing we noted a lack of documentation of proof of
citizenship and age eligibility in a number of instances.

We recommend that the Corporation develop policy guidelines that comply with established regulations
for adequate proof of citizenship and age eligibility for NCCC and VISTA. Further, we recommend that
the Corporation reinforce its policy and guidance to ensure that member files contain all such documents
for all programs.

A.4.    Member enrollment and end-of-term forms are not always processed in a timely manner.

We reviewed a download of e-SPAN data as of June 30,2004. This data contained 28,l3 1 members whc
had completed program requirements during FY 2003 and FY 2004. Of these members, 7,2 16 were not
exited within 30 days of program completion. Further, it was noted that of 43 members (from the files
reviewed in A.3. above) who completed programs during FY 2003 and FY 2004, 19 members were not
enrolled within 30 days of starting service.

Delays in processing member enrollmentlexit information could affect the calculation of the National
Service Trust Award Liability and related expenses.

We recommend that the Corporation coordinate with Grants Management and Program Offices to
reemphasize the importance of timely processing member exit information within the allotted 30-day
period following a member's completion of service.

B. NATIONAL SERVICE TRUST

B.1.    Interest forbearance procedures are not always followed.

Corporation policies require that interest forbearance payments over $5,000 be approved by the
Supervisor of the Trust. Ten payments of more than $5,000 were made during FY 2004. The Supervisor
of the Trust did not approve four of these payments.

We recommend that the Corporation reemphasize the importance of following this approval policy and
periodically conduct reviews of data to ensure that all interest forbearance requests of more than $5,000
are verified and approved before payment.
                                                     2
B.2.    Trust disbursement procedures are inconsistent.

Trust disbursement procedures for payments to educational institutions require that payments in excess of
$1,500 be made in two separate amounts. The first payment should be made when course work begins
and the second payment should be made halfway through the semester. It was noted in four out of six
instances tested that when no dates were provided, payments were made in one lump sum.

We recommend that the Corporation modify the current standard operating procedure to include a
procedure on how to process a payment when the institution does not provide adequate information
regarding start and mid-point dates.

B.3.    VISTA member partial awards are inconsistent.

A review of e-SPAN found one VISTA member and one non-VISTA member received awards without
completing the minimum hours of service required to be eligible for a partial award.

We recommend that Trust personnel coordinate efforts with the Office of Information Technology (OIT)
to correct the deficiency in e-SPAN that allowed this condition to occur.

C. ACCOUNTS RECEIVABLE AND DEBT COLLECTION

C.1.    Debt collection activities are inconsistently conducted.

Debt collection activities are not consistently conducted in accordance with Corporation policies and
procedures. In three out of 15 delinquent receivables tested, delinquencies aged more than 60 days were
not forwarded to Accounting and Financial Management Services for further collection efforts in a timelj
manner. We also noted that all requested files could not be produced. Of the files reviewed, one was
missing the cost share authorization, and two had not been invoiced.

We recommend that the Corporation review and emphasize debt collection policies to Corporation staff
and implement monitoring procedures to ensure that policies are followed. Those procedures should be
enforced to ensure that files are properly maintained.

D. HUMAN RESOURCES AND PAYROLL

D.1.    Overtime was not always approved in writing.

We reviewed employee time sheets and noted that overtime was recorded without advance written
approval in three instances. We verified the policy requiring advance written approval of overtime with
the Office of Human Resources. This policy is not clearly documented or correctly applied. Although ar
overtime approval form does exist, it is not consistently used. Failure to attach this form to time sheets
limits the monitoring abilities of the timekeeper. Unapproved overtime may be misused by employees
and may not be budgeted for by supervisors.

We recommend the Corporation clearly document and distribute its advance written approval policy for
overtime and allow timekeepers to reject employee time sheets without proper attachments.
E. VENDOR PAYMENTS

E.1.   Vendor payments are not always disbursed in a timely manner.

During the review of procurements, we found disbursements that were paid in excess of 30 days. The
Corporation appropriately included interest when disbursing these late payments, which prevented
violations of the Prompt Payment Act. One reason for the delay is that certain contracts have to be
verified by several offices to ensure that goods and/or services have been provided before vendor
payments are made.

We recommend that the Corporation place stricter controls over responsible offices, reemphasize the
importance of timely payments, investigate offices with delinquent payments, and resolve bottlenecks in
the disbursement process.

F. GENERAL ELECTRONIC DATA PROCESSING CONTROLS REVIEW

F.1.    Certain general controls on information security are weak.

As part of the FY 2004 audit, we reviewed controls over systems that process and report information in
support of the Corporation's annual financial statements. We also reviewed network access controls usec
to secure and safeguard financial information traveling over the Corporation's network. This review was
conducted under the guidelines of the Government Accountability Office's (GAO) Federal Information
Systems Control Audit Manual (FISCAM).

The systems included in our audit were:

                Windows NT and 2000 servers (network);
                Momentum Financial System;
                eSPAN; and
                eGrants.

For our audit we relied on special publications and guidelines developed by the National Institute of
Standards and Technology (NIST); guidelines developed by the National Security Agency (NSA);
guidelines from the Center for Internet Security (CIS); and OMB Circular A-130 (Appendix 111).

In conducting our review of internal control over information technology (IT), we reviewed controls in
the following FISCAM categories:

        rn      Entity-wide security program planning and management;
                Access controls;
                Application software development and program change controls;
                System software controls;
                Segregation-of-duty controls; and
                Service continuity controls.

Within these six review areas, we noted three conditions, as detailed below, in which the information
security general control environment could be improved. The Corporation often has good security
practices in place, but it does not have formal, documented policies and procedures in place for all
practices. We found that technical configuration control weaknesses exist in both the network operating
system and the eSPAN/eGrants database. These technical control deficiencies within the general support
system and major applications weaken controls within financial applications. These weaknesses also
reduce the reliability, integrity, and confidentiality of the financial data used to prepare the Corporation's
financial statements. More specifically, we noted the following three conditions:

    1. The current Windows 2000 domain controllers and a Windows NT member server supporting the
       eSPAN1eGrants system are not configured in compliance with NIST, NSA, and other Federal
       regulations. The OIT has not created a minimally acceptable baseline configuration for server
       operating systems. While many of the vulnerabilities identified in previous audits have been
       addressed, the remaining weaknesses represent a moderate risk to the Corporation.

    2. The Oracle 8i database supporting the eSPAN and eGrants systems is not configured in
       compliance with Federal guidance from CIS, NIST, and NSA. During the audit, high-risk
       vulnerabilities were promptly addressed by Corporation management, but the current
       configuration still represents a moderate risk. Additionally, OIT has not created a minimally
       acceptable baseline configuration for the Oracle database management system.

    3. Documentation of policies, procedures, and standards is not in place for some areas, including:

             a. Rules of behavior for the network and major applications.
             b. The Program manager sign-off requirements to approve system use within certification
                and accreditation packages.
             c. Account reviews for all systems.
             d. Corporation draft policy on Systems Development Life Cycle should be finalized,
                approved and distributed to OIT personnel.
             e. Policies prohibiting eating and drinking in the computer room.
             f. Segregation of incompatible duties for both IT administrative functions and financial dat;
                management. Documented job descriptions do not accurately reflect assigned duties,
                responsibilities, and segregation of duties.
             g. Job rotation or mandatory vacation for key IT personnel.
             h. Technical training requirements for IT personnel.
             i. Employee participation in the Corporation's security awareness program.

To correct the above issues, we recommend that the Corporation's Office of Information Technology
(OIT):

    1. Review deficiencies in the Windows 2000 server configurations and take corrective actions to
       ensure that the configuration is consistent with NIST and NSA guidelines. To correct the
       Windows NT deficiencies, we recommend that OIT complete its efforts to fully migrate from
       Windows NT to Windows 2000. Also, OIT should create minimally acceptable baseline
       configurations for all server operating systems that adequately address security and comply with
       Federal guidance.

    2. Review deficiencies in the Oracle 8i database configurations. Continue with the planned upgrade
       of the database to Oracle 9i. Ensure that technical guidance for Federal systems, such as the CIS
       Benchmark, is followed during and after implementation of the new version of Oracle. Also, 01:
       should create a minimally acceptable baseline configuration for the Oracle database management
       system that adequately addresses security and complies with Federal guidance.

    3. Document policies, procedures, and standards as follows:

             a. Continue current efforts to document rules of behavior that apply to all systems. Ensure
                that all users read and agree to the rules of behavior.
                 Continue the current certification and accreditation process. Ensure that the system
                 owners and program managers officially acknowledge the residual operating risks and
                 accept the risks of having the particular system in production.
                 Develop fully documented procedures for the methodology and frequency of account
                 reviews for the network platforms and financial applications currently conducted by 011
                 Continue efforts to improve the SDLC methodology. Ensure that the changes made to
                 the document are approved by senior management and are distributed to affected
                 personnel for implementation.
                 Develop a policy that prohibits potentially risky behavior in the computer room,
                 including eating and drinking.
                 Document the policy and procedures for segregation of incompatible duties. These
                 procedures should include reviews for incompatible permissions in all major systems.
                 The policy should detail required steps for the initial creation of accounts, and should
                 require account reviews at regularly scheduled intervals.
                 Create job rotation or mandatory vacation requirements to ensure that critical duties are
                 performed by more than one person.
                 Create a training plan for key IT personnel. Ensure that system administrators and
                 security personnel have sufficient and current training on systems for which they are
                 responsible. Ensure that training is part of the implementation plan for new and updatec
                 systems.
                 Create policy and procedures to ensure that all system users participate in the
                 Corporation's security awareness training program. Active tracking and monitoring of
                 participation is required to ensure all users participate.

 G. PROPERTY

 G.1.    Property records between Headquarters and Service Centers do not always agree.

 During site visit testing of property at the Southwest and Pacific Service Centers, we noted discrepancier
 between the inventory lists provided by Headquarters and by the Service Centers. Property custodians a
 not aware of all responsibilities associated with property maintenance.

 We recommend that the Corporation coordinate property custodian activities and ensure that employees
 review Corporation Policy Number 500 regarding property management.


 STATUS OF PRIOR-YEAR MANAGEMENT LETTER COMMENTS
                                                                                                              I
I Fiscal Year 2003 Management Letter Comment               I Fiscal Year 2004 Status                          h
 A.l Oversight of OMB Circular A- 133 reportinglaudit       This issue remains open.
 findings are not resolved in a timely manner.
 A.2 Grant closeout procedures do not ensure that           This issue remains open.
 projects are closed in a timely manner.
 B.l The process of reviewing Web-Based Reporting           Management has fully implemented
 System (WBRS) Reconciliation Reports should be             corrective actions to address this issue. This
 strengthened.                                              issue is closed.
 B.2 Member end-of-term forms are not always                This issue remains open.
 processed in a timely manner.
    Fiscal Year 2003 Management Letter Comment             Fiscal Year 2004 Status
    B.3 Interest forbearance procedures are not always     This issue remains open.
    followed.
                                                           Management has fully implemented
    in a timely manner.                                    corrective actions to address this issue. This
                                                           issue is closed.
                                                           Management has fully implemented
                                                           corrective actions to address this issue. This
                                                           issue is closed.
    C.l VISTA receivables of $30 or less are directly      Management has fully implemented
    written off.                                           corrective actions to address this issue. This
                                                           issue is closed.
    C.2 Debt collection activities are inconsistently      This issue is reported as C. 1 this year and
    conducted.                                             remains open.
I C.3 Cost-share agreements are not reconciled in a        Management has fully implemented
I timely manner, a i d discrepancies exist between eSPAN   corrective actions to address this issue. This
I and Momentum.                                            issue is closed.
    D.l Overtime was not always approved in writing.       This issue remains open.
    D.2. Controls over time sheet reporting are weak in    Management has fully implemented
I   some instances.                                        corrective actions to address this issue. This
                                                           issue is closed.
    E.l Vendor payments are not always disbursed in a      This issue remains open.
I timely manner.
1 F.l Certain general controls on information securityGe   This issue remains open; however, several of
    weak.                                                  the high-risk items identified in FY 2003 have
                                                           been corrected. Some less significant
                                                           conditions were noted during the FY 2004
                                                           review.
                                             CORPORATION

                                             FOR NATIONAL
                                             -AND     -
                                             C O M M U N I T Y




     MEMORANDUM

     Date:          December 20,2004

     To:            Carol Bates, Acting Inspector General

     From:          Bill Anderson, Deputy CFO for Financia

     Subject:       Comments on Management Letter


     Thank you for the opportunity to comment on the draft management letter on the results of you
     audit of the Corporation's fiscal 2004 financial statements. The Corporation is pleased that it
     continues to receive a clean opinion on its financial statements and that the audit found continu
     improvement in our internal controls. The management letter recommends several areas for
     further improvement. The Corporation's response to each recommendation is outlined below.
     addition, the Corporation has completed action on seven of the 14 recommendations included i
     the report; therefore, this response serves as notice of final action for those items.

     Corporation Comments

     Finding A . l - OMB Circular A-133 audit documentation. The audit recommends that the
     Corporation: ensure that FAC reviews occur on a timely basis; follows up with grantees to
     ensure that exceptions are corrected promptly; accurately transcribes data into the FAC databas
     and maintains supporting documentation.

     Corporation Response - As the audit noted, Corporation grants staff in the service centers an(
     at headquarters review the Federal Audit Clearinghouse (FAC) prior to the award of grant
     funding to identify weaknesses and compliance problems noted in the A-133 audit, if any. If tt
     FAC review discloses findings grants management specialists note the status of corrective actic
     This review is documented on the grants officer certification form. However, we agree that
     documentation of corrective action is not always maintained consistently in the Corporation's 1
     133 audit resolution database. We will bring the grants management specialists together for
     training on the use and documentation requirements for the Corporation's A-1 33 audit resolutic
     process. The training will be conducted in conjunction with one of the upcoming Grants
     Management certification classes that we are conducting in the spring or summer of 2005.




1201 New York Ave., N.W Washington, DC 20525 202-606-5000 www.nationalservice.org             "        part(
                                                                                              U   SAS
                                                                                              Freedom Coq
                                  Senior Corps      AmeriCorps   Learn and Serve America
                                                                                              The Prcs~dent< all to Service
Finding A.2 - Grant closeout procedures. The audit recommends that the Corporation
develop a consistent method of identifying expired grants; enforce timely administrative closeo
of grants; communicate the importance of semiannual FSRs to applicable grantees; and
follow-up procedures when grantees are late.

Corporation Response - The Corporation has implemented a consistent method of identifying
expired grants, but needs to implement additional controls to ensure grantees submit closeout
documents on time and accurately. We are modifying the closeout processes in eGrants to send
automatic notifications to grantees 30 days before their grant expires instructing them on the
steps for closeout and informing them that their FSRs must be submitted within 90 days of the
expiration date of the grant. Grantees will be informed that access to their accounts at HHS ma.
be denied if their reports are late. eGrants will send a series of reminders to grants staff and
grantees to make sure they are aware of upcoming deadlines.

In addition, the Corporation is preparing an instructional document on the closeout process that   1
instructs grantees on how to reconcile their records and reports and update the HHS Payment 1
Management System to facilitate the closeout process. These new processes and follow-up
procedures should ensure that the Corporation tracks the closeout process effectively and
closeouts are not delayed because of grantee reporting delinquencies. The eGrants                1
enhancements are scheduled to be completed by March 2005 and the instructional document wil/
be disseminated to the field by June 2005.                                                       1

Finding A.3 - Member file documentation. The audit recommends that the Corporation                     !
develop policy guidelines that comply with established regulations for adequate proof of
citizenship and age eligibility for NCCC and VISTA and reinforce its policy and guidance to
ensure that member files contain all such documents for all programs.

Corporation Response - The Corporation will reinforce its policy and provide guidance to               ii
grantees, NCCC and VISTA staff to ensure that member files properly document eligibility.
                                                                                                       I1
Finding A.4 - Member enrollment and end-of-term form processing. The audit recommends
that the Corporation reemphasize the importance of timely processing member exit information
within the allotted 30-day period following a member's completion of service.

Corporation Response - The Corporation recently reemphasized with its grantees, state offices
and sponsors the importance of timely processing of member exit information. In addition, the
Corporation will regularly review performance in this area to ensure compliance with the      I
requirement. [Final Action Completed]                                                         !I
                                                                                                            I
Finding B.l - Interest forbearance procedures. The audit recommends that the Corporation 1
reemphasize the importance of following this approval policy and periodically conduct reviews 1
of data to ensure that all interest forbearance requests of more than $5,000 are verified and I
approved before payment.                                                                      I
                                                                                                            !

Corporation Response - The Corporation reemphasized to Trust staff the need to ensure that all I
interest accrual documents are approved by the Trust Manager prior to payment. Additionally, !
the Trust Manager will monitor this process to ensure that any such payments are properly                       I


approved. [Final Action Completed]
Finding B.2 -Trust disbursement procedures. The audit recommends that the Corporation
modify the current Standard Operating Procedure to include a procedure on how to process a
payment when the institution does not provide adequate information regarding start and mid-
point dates.

Corporation Response - The Trust Standard Operating Procedures (SOP) allows administrativ
staff some flexibility in processing split payments. The SOP states: "lfthepayment is for currer
educational expenses and exceeds $1,500, you should split the payment into two equal amounts
unless the midpoint date given for the enrollment period has already passed or is less than 30
days in the future. In that case, pay the full amount. No split should be made for payments to
loan holders, regardless of thepayment amount. " In addition, staff must weigh when the
voucher request is received in conjunction with the payment dates or if adequate information is
not reflected on the voucher. The Trust manager will monitor this process to ensure that
payments are made properly. [Final Action Completed]

Finding B.3 - VISTA member partial awards are inconsistent. The audit recommends that
Trust personnel coordinate efforts with the Office of Information Technology to correct the
deficiency in e-SPAN that allowed this condition to occur.

Corporation Response - The Trust Office has submitted a system change request to resolve th
discrepancy in the eSPAN system and prevent granting of award when a member has not
completed the requisite minimum service. The changes are scheduled for implementation by th
end of December 2004.

Finding C.l - Debt collection. The audit recommends that the Corporation review and
emphasize debt collection policies to Corporation staff and implement monitoring procedures tc
ensure that policies are followed and files are properly maintained.

Corporation Response - The Corporation has reemphasized debt collection policies to
Corporation staff and will monitor procedures to ensure that policies are followed. [Final Actiol
Completed]

Finding D.l - Overtime approval. The audit recommends that the Corporation clearly
document and distribute its policy that overtime be approved in advance and in writing and all01
timekeepers to reject employee timesheets without proper attachments.

Corporation Response - In a December 15,2004 message to timekeepers the Corporation
reemphasized that overtime must be approved in writing and that timekeepers should reject
timesheets requesting overtime that are submitted without proper approval. The Office of
Human Capital will periodically review timekeeper performance in this area to ensure
compliance. [Final Action Completed]

Finding E.l - Vendor payments. The audit recommends that the Corporation place stricter
controls over responsible offices; reemphasize the importance of timely payments; investigate
offices with delinquent payments; and resolve bottlenecks in the disbursement process.

Corporation Response - While the Corporation's prompt pay interest is minimal we are
striving to reduce the amount to zero. To that end OPS conducted in-house training for all
personnel involved in the invoicing process on December 14th. As an additional measure, OPS
plans to implement a suspense system enabling it to go directly to the responsible COTR and
insure that invoices are processed in a timely manner. [Final Action Completed]

Finding F.l -General information security controls. The audit recommends that OIT: ( I )
complete its efforts to fully migrate from Windows NT to Windows 2000 and create minimally
acceptable baseline configurations for all server operating systems that adequately address
security and comply with Federal guidance; (2) continue with the planned upgrade of the
database to Oracle 9i, ensure that technical guidance for Federal systems, such as the CIS
Benchmark, is followed during and after implementation of the new version of Oracle, and crea
a minimally acceptable baseline configuration for the Oracle database management system that
adequately addresses security and complies with Federal guidance; and (3) document policies,
procedures, and standards.

Corporation Response - OIT constantly reviews configuration recommendations from many
different sources including NIST and NSA and applies them as necessary. OIT has created a
detailed test-to-production scheme for all operating system changes and performs upgrades on j
servers in an order that insures the maximum protection of mission critical servers. All servers I
adhere to a consistent baseline software configuration, which is verified at the completion of
every server build. The remaining NT servers are being phased out of production as replacemer
                                                                                                    I
functionality can be placed online; this is expected to be completed by June 2005.

OIT is currently in the process of creating a true Oracle specific server farm which will include
rigid test-to-production scheme for all system changes. As a part of this process, the Oracle
databases will be upgraded to version 9i. OIT currently reviews all software and configuration
recommendations from many different sources including Oracle, NIST and NSA and applies
them as necessary. All servers adhere to a consistent baseline software configuration, which is
verified at the completion of every server build.

OIT reviews its processes and policies on an on-going basis and makes changes or develops nev
policies as necessary on an on-going basis. [Final Action Completed]

G.1 - Property records between Headquarters and Service Centers do not always agree.
The audit recommends that the Corporation coordinate property custodian activities and review
Corporation Policy Number 500 regarding property management.

Corporation Response - OAMS staff will coordinate property custodian activities and ensure
that Corporation Policy Number 500 is updated, available, understood and properly followed. I
addition, OAMS staff will perform periodic site visits to ensure that the property policy is
implemented properly and understood by the property custodians.

cc:    Andrew Kleine
       Rosie Mauk
       Howard Turner
       Merlene Mazyck
       Peter Hill
       Peg Rosenberry
       Tory Wilson
